No. 20-

INTHE

&upnmt <!tnurl nf t!Jt lnitth &tatts
ABBVIE INC., ABBOTI LABORATORIES, UNIMED
PHARMACEUTICALS LLC, AND BESINS HEALTHCARE, INC.,

Petitioners,

V.

FEDERAL TRADE COMMISSION,

Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

CERTIFICATE OF SERVICE

I, Catherine M.A. Carroll, a member of the bar of this Court, hereby certify that,
on this 16th day of March, 2021, all parties required to be served have been served
copies of the Petition for a Writ of Certiorari in this matter by overnight courier to the
addresses on the attached service list.

,

4wall~

CATHERINE M.A. CARROLL
WILMER CUTLER PICKERING
HALE AND DORR LLP

1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
catherine.carroll@wilmerhale.com

SERVICE LIST
ALDEN F. ABBOTT
General Counsel
JOEL MARCUS
Deputy General Counsel
MATTHEW M. HOFFMAN
Attorney
UNITED STATES FEDERAL TRADE COMMISSION
600 Pennsylvania Ave., NW
Washington, DC 20580
(202) 326-3097
mhoffman@ftc.gov
ELIZABETH B. PRELOGAR
ACTING SOLICITOR GENERAL
UNITED STATES DEPARTMENT OF JUSTICE
OFFICE OF THE SOLICITOR GENERAL
950 Pennsylvania Ave., NW
Washington, DC 20530
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

